<html>
<title> - GANGS IN OUR COMMUNITIES: DRUGS, HUMAN TRAFFICKING, AND VIOLENCE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


    GANGS IN OUR COMMUNITIES: DRUGS, HUMAN TRAFFICKING, AND VIOLENCE

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                 HOMELAND SECURITY, AND INVESTIGATIONS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 20, 2017

                               __________

                           Serial No. 115-41

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        
         
         
         
      Available via the World Wide Web: http://judiciary.house.gov
                       
                       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-473                      WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="89eef9e6c9eafcfafde1ece5f9a7eae6e4a7">[email&#160;protected]</a> 
                      
                       
                     
                       
                       
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr., 
TRENT FRANKS, Arizona                    Georgia
LOUIE GOHMERT, Texas                 THEODORE E. DEUTCH, Florida
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
TED POE, Texas                       KAREN BASS, California
JASON CHAFFETZ, Utah                 CEDRIC L. RICHMOND, Louisiana
TOM MARINO, Pennsylvania             HAKEEM S. JEFFRIES, New York
TREY GOWDY, South Carolina           DAVID CICILLINE, Rhode Island
RAUL LABRADOR, Idaho                 ERIC SWALWELL, California
BLAKE FARENTHOLD, Texas              TED LIEU, California
DOUG COLLINS, Georgia                JAMIE RASKIN, Maryland
RON DeSANTIS, Florida                PRAMILA JAYAPAL, Washington
KEN BUCK, Colorado                   BRAD SCHNEIDER, Illinois
JOHN RATCLIFFE, Texas
MARTHA ROBY, Alabama
MATT GAETZ, Florida
MIKE JOHNSON, Louisiana
ANDY BIGGS, Arizona

          Shelley Husband, Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

 Subcommittee on Crime, Terrorism, Homeland Security and Investigations

                  TREY GOWDY, South Carolina, Chairman
                  LOUIE GOHMERT, Texas, Vice-Chairman
JIM SENSENBRENNER, Jr., Wisconsin    SHEILA JACKSON LEE, Texas
STEVE CHABOT, Ohio                   TED DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
JASON CHAFFETZ, Utah                 CEDRIC L. RICHMOND, Louisiana
JOHN RATCLIFFE, Texas                HAKEEM JEFFRIES, New York
MARTHA ROBY, Alabama                 TED LIEU, California
MIKE JOHNSON, Louisiana              JAMIE RASKIN, Maryland
                            
                            
                            C O N T E N T S

                              ----------                              

                             JULY 20, 2017
                           OPENING STATEMENTS

                                                                   Page
The Honorable Louis Gohmert, Texas, Vice-Chairman, Subcommittee 
  on Crime, Terrorism, Homeland Security, and Investigations; 
  Committee on the Judiciary.....................................    00
The Honorable John Conyers, Jr., Michigan, Ranking Member, 
  Committee on the Judiciary.....................................    00
The Honorable Bob Goodlatte, Virginia, Chairman, Committee on the 
  Judiciary......................................................    00
The Honorable Sheila Jackson Lee, Texas, Ranking Member, 
  Subcommittee on Crime, Terrorism, Homeland Security, and 
  Investigations; Committee on the Judiciary.....................    00

                               WITNESSES

Mr. Kenneth Blanco, Acting Assistant Attorney General of the 
  Criminal Division, U.S. Department of Justice
    Oral Statement...............................................     2
Mr. Mark Vanek, Board Advisory Member, Midwest Gang Investigators 
  Association, Illinois Chapter
    Oral Statement...............................................     3
Captain Chris Marks, Los Angeles County Sheriff's Department
    Oral Statement...............................................     6
Dr. Gary Slutkin, Founder, Cure Violence
    Oral Statement...............................................     7

 
    GANGS IN OUR COMMUNITIES: DRUGS, HUMAN TRAFFICKING, AND VIOLENCE

                              ----------                              


                        THURSDAY, JULY 20, 2017

                        House of Representatives

Subcommittee on Crime, Terrorism, Homeland Security, and Investigations

                      Committee on the Judiciary4

                            Washington, DC.

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2141, Rayburn House Office Building, Hon. James F. 
Sensenbrenner, Jr. [chairman of the subcommittee] presiding.
    Present: Representatives Sensenbrenner, Goodlatte, Chabot, 
Poe, Rutherford, Jackson Lee, Bass, and Lieu.
    Staff Present: Margaret Barr, Counsel; Scott Johnson, 
Clerk; Joe Graupensperger, Minority Chief Counsel, Subcommittee 
on Crime, Terrorism, Homeland Security and Investigations; 
Monalisa Dugue, Minority Deputy Chief Counsel, Subcommittee on 
Crime, Terrorism, Homeland Security and Investigations; 
Veronica Eligan, Minority Professional Staff Member; Mauri 
Gray, Minority Crime Detailee; and Regina Milledge-Brown, 
Minority Crime Detailee.
    Mr. Sensenbrenner. It is now 10 o'clock. The Subcommittee 
on Crime, Terrorism, and Homeland Security will come to order. 
Without objection, the chair is authorized to declare recesses 
of the subcommittee at any time.
    And let me say that we are to vote between 10:45 and 10:50. 
I will not make an opening statement, but put my opening 
statement into the record. I will ask every other member to 
allow us to hear the witnesses so that they all are able to get 
their testimony in before we have to leave to go and vote. So 
without objection, all opening statements will be placed into 
the record at this time.
    We have a very distinguished panel this morning, and I will 
begin by swearing in our witnesses before introducing them.
    Would you all please rise and raise your right hand?
    Do you solemnly swear the testimony you are about to give 
to this committee will be the truth, the whole truth, and 
nothing but the truth, so help you God?
    Let the record show that all of the witnesses have answered 
in the affirmative.
    I will give an abbreviated introduction for all of the 
witnesses so that we can hear them and get to as many questions 
as possible.
    The first witness is Kenneth Blanco, who is the acting 
assistant attorney general for the Criminal Division in the 
Department of Justice. The second witness is Mr. Marc Vanek, 
who is a board advisory member for the Illinois Chapter of the 
Midwest Gang Investigators Association. The third witness is 
Captain Chris Marks from the Los Angeles County Sheriff's 
Department. And our fourth witness is Dr. Gary Slutkin, who is 
the founder of Cure Violence, a nongovernment organization 
based in Chicago.
    We will now proceed under the 5-minute rule.
    And Mr. Blanco, you are first.

  TESTIMONY OF MR. KENNETH BLANCO, ACTING ASSISTANT ATTORNEY 
 GENERAL OF THE CRIMINAL DIVISION, U.S. DEPARTMENT OF JUSTICE; 
      MR. MARC VANEK, BOARD ADVISORY MEMBER, MIDWEST GANG 
  INVESTIGATORS ASSOCIATION, ILLINOIS CHAPTER; CAPTAIN CHRIS 
 MARKS, LOS ANGELES COUNTY SHERIFF'S DEPARTMENT; AND DR. GARY 
                SLUTKIN, FOUNDER, CURE VIOLENCE

                  TESTIMONY OF KENNETH BLANCO

    Mr. Blanco. Thank you. Good morning, Chairman Goodlatte, 
Chairman Sensenbrenner, Ranking Member Jackson Lee, and members 
of the subcommittee. It is a pleasure to appear before you this 
morning to discuss the Department of Justice's efforts to 
combat gang violence.
    Violent crime is on the rise in many parts of America. Gang 
violence is increasingly in the headlines and news cycles every 
day in its frequency and its effect in the communities and its 
effect on innocent people who get caught in the crossfire.
    There are approximately 1.4 million members of 33,000 gangs 
operating across the country, all of whom use violence to boost 
their illegal money-making activities, protect their 
territories, intimidate their rivals, and enhance their status 
and fulfill their missions.
    Too many of our citizens live in fear of these violent 
criminals. All Americans deserve to be free from violence and 
safe in their homes, schools, jobs, and neighborhoods.
    This is why it is a top priority of the Department of 
Justice, under the leadership of Attorney General Sessions, to 
reduce violent crime in America, including gang-related 
violence.
    Reducing crime requires that we balance strong law 
enforcement with effective prevention measures. We must take 
the violent offenders off the street and thwart gangs' efforts 
to recruit vulnerable youth.
    To achieve the first of these twin aims, the Department 
relies on the expertise of its Federal prosecutors and law 
enforcement agents, including the Criminal Division's Organized 
Crime and Gang Section, the Narcotic and Dangerous Drug 
section, the U.S. Attorneys' Offices, as well as its law 
enforcement agencies, like the ATF, FBI, DEA, and U.S. Marshals 
Service, and other law enforcement partners, such as the U.S. 
Immigration and Customs Enforcement, Homeland Security 
Investigations, HSI, and State, local, and Tribal law 
enforcement partners.
    Federal prosecutors and their law enforcement partners lead 
investigations and prosecutions of criminal gangs of regional, 
national, and international significance, such as the Aryan 
Brotherhood of Texas, the Gangster Disciples, and the MS-13, to 
name just a few.
    Prosecutors and investigators have prioritized violent 
crime and are working to identify the most violent offenders in 
their districts and to ensure that individuals are prosecuted 
fully and sentenced appropriately, including under applicable 
Federal, State guidelines and significant penalties under the 
law.
    Many gangs distribute dangerous illegal drugs to generate 
income to support their criminal activities, and with drug 
distribution comes violence. Thus, when appropriate, Federal 
prosecutors also seek to charge gang members and the foreign 
kingpins who supply them with drug offenses.
    None of these investigations and prosecutions, however, 
would be possible without the daily sacrifice of the dedicated 
law enforcement officers who investigate these criminals. 
Specialized task forces comprised of Federal, State, local, and 
Tribal law enforcement officers, such as the FBI's Safe Streets 
Task Forces, HSI's Operation Community Shield, and those funded 
by the Organized Crime and Drug Enforcement Task Forces Program 
are hard at work in the areas with the highest concentration of 
drug and gang violence.
    Law enforcement efforts to arrest and incarcerate violent 
gang members have a significant impact on the quality of life 
in our communities. But enforcement alone will not end gang 
membership and gang violence. We must also support gang 
intervention and gang prevention programs.
    Many such programs are funded by the Department's grant-
making components, including the Office of Justice Programs, 
OJP, and the Office of Community Oriented Policing Services, 
COPS.
    For example, OJP's Office of Juvenile Justice and 
Delinquency Prevention and Bureau of Justice Assistance jointly 
fund the National Gang Center, which provides comprehensive 
resources, training, and strategic tools to those in the field 
of law enforcement and criminal justice, as well as to the 
community organizations to prevent gang violence, reduce gang 
involvement, and suppress gang-related crime.
    These are just but a few examples of the Department's 
continued commitment to supporting our Federal, State, local, 
and Tribal enforcement partners and ending the scourge of gang 
violence in our communities.
    Thank you, and I look forward to answering your questions.
    [The testimony of Mr. Blanco follows:]

                               INSERT 1-1

    Mr. Sensenbrenner. Thanks very much, Mr. Blanco.
    I forgot to ask this. I ask unanimous consent that all of 
the witnesses' written statements be placed in the record in 
full.
    Mr. Vanek.

                    TESTIMONY OF MARC VANEK

    Mr. Vanek. Good morning. Thank you, Mr. Chairman, Ranking 
Member, and members of the subcommittee, for inviting me today 
to speak about gangs in our community. It is an honor and 
privilege to be here today.
    I currently serve on the board for the Midwest Gang 
Investigators Association, Illinois Chapter. The Midwest Gang 
Investigators Association was formed in 1987 and is an 
organization with over 2,000 members representing 12 States 
throughout the Midwest. It is a collaborative association whose 
mission is to develop and recommend strategies to prevent and 
control gang crime, administer professional training, as well 
as assist criminal justice professionals, educators, probation/
parole, and the public regarding gangs in their communities.
    For the last 17 years, I have been employed as a full-time 
sworn law enforcement officer in the Midwest with extensive 
experience in investigating street gangs on both the State and 
Federal level.
    Street gangs today are different than the gangs of 10, 20, 
even 30 years ago. Presently, street gangs are more violent, 
more technological-savvy, factionalized, and glorified. Street 
gangs have increased their prominence over juveniles and drug 
addicts in their day-to-day operations.
    Social media, the internet, television, and the explosion 
of the gangster rap culture has glorified the gang lifestyle to 
juveniles. In African American gangs factionalization has 
become the norm in the street gang life with no longer a strict 
hierarchy.
    Presently, gangs have factions that number into the 
hundreds. In Chicago, for example, one gang has over 200 
factions operating in the city of Chicago and dozens more in 
the metropolitan area. In many suburban areas, every block has 
its own faction or what is being called a hybrid gang.
    A hybrid gang, or gang faction, consists of a younger 
generation of gang members, gang members of different racial/
ethnic groups, and gang members that were or are from different 
gangs. These hybrid gangs have unclear codes of conduct, no 
hierarchy, or no symbolic association with more than one gang.
    The Hispanic gangs have largely remained under control of a 
strict hierarchy. The Hispanic gangs are still committed to 
their codes, colors, and territory and loyalty to their gang. 
The Hispanic gangs still abide by the People and Folks Nation 
alliances from the late 1970s.
    Gang members prey on individuals that cannot help 
themselves by getting them addicted to a certain drug and then 
routinely provide them with that drug. Gang members have become 
the staple for supply of fentanyl and carfentanyl into the 
streets. Just a quarter of a milligram of fentanyl can kill you 
almost instantly. Carfentanyl is 10,000 times stronger than 
morphine and 100 times stronger than fentanyl.
    The younger generation of gang members are more tech savvy 
than ever before. The internet and social media have made it 
enormously easier for gang members to reach a larger customer 
base than selling on the street corner. At any time, I can go 
onto the internet or social media and within seconds interact 
with a gang member to purchase any type of drug I wish. I have 
personally investigated these types of crimes, and it has 
become chilling to the extent of the amounts and variety of 
drugs that are available to be purchased as well as weapons.
    The cause of gang violence stems from several factors, such 
as fighting over selling drugs, comments made on social media, 
rap song lyrics that each gang creates about their rivals, and 
in particular Hispanic gangs fighting over colors and 
territory.
    Gang members have taken violence within their communities 
to a higher level than ever seen before. In today's gang world, 
juveniles and innocent bystanders are being shot and killed 
more than ever. Gang members today view targeting a rival 
gang's family as just a worthy target as targeting the 
individual gang member themselves.
    In areas like the State of Illinois, County of Cook, when 
an individual is shot and either a victim or a witness makes a 
positive identification of that offender and the victim does 
not wish to prosecute, the offender is not charged with the 
offense. In fact, often the offender is not charged with any 
crime.
    Another hindrance for law enforcement is getting overworked 
and resource-drained prosecutors to approve charges on gang 
cases based on the facts and merits of the case rather than 
what it is believed a judge or jury will view on.
    The biggest obstacle for law enforcement is getting 
witnesses to cooperate in any type of gang-related 
investigation. Law enforcement does not have the immediate 
resources available to relocate or provide assistance to 
witnesses. Without any assistance or incentives, how can we 
expect witnesses to come forward and place their lives and 
families in harm's way?
    There are technological advances that can help law 
enforcement on gang-related and shooting murder scenes. 
Ammunition, when fired from, leaves a unique fingerprint-type 
mark in semi- and fully-automatic firearms. Requiring samples 
from all semi-automatic or fully automatic firearms entered 
into the NIBIN system would provide law enforcement 
investigators with new immediate leads that would allow law 
enforcement to be able to stem the proliferation of gun straw 
purchasers to street gang members.
    Mr. Chairman, Ranking Member, and members of the 
subcommittee, thank you for inviting me to testify today. Law 
enforcement cannot be the sole answer to reducing gang 
violence. Law enforcement is only part of the solution to 
reducing gang violence. Prosecutors and judges must be held 
accountable as well as law enforcement is with the rise in gang 
violence. Law enforcement, the judicial system, government, and 
social and economic programs and community involvement are all 
central to reducing gang violence. Not one entity can solve it 
alone or take credit. It must be a coordinated effort on all 
parties.
    I look forward to answering your questions that you might 
have about gangs and look forward to working with members of 
the subcommittee to ensure success in reducing gang violence.
    Thank you.
    [The testimony of Mr. Vanek follows:]

                               INSERT 1-2

    Mr. Sensenbrenner. Thank you, Mr. Vanek.
    Captain Marks.

                    TESTIMONY OF CHRIS MARKS

    Captain Marks. Chairman Sensenbrenner, Ranking Member 
Jackson Lee, distinguished members of the subcommittee, on 
behalf of the Major County Sheriffs of America, Los Angeles 
County Sheriff Jim McDonnell, and all the partners who comprise 
the Los Angeles Regional Human Trafficking Task Force, thank 
you for inviting me to testify this morning on street gang 
members and sex trafficking.
    The Los Angeles Regional Human Trafficking Regional Task 
Force combines the resources of local, State, and Federal law 
enforcement with the prosecutorial authority of the Los Angeles 
district attorney and the U.S. Attorney's Office with a truly 
victim-centered approach.
    The combination of resources, including the Los Angeles 
County Department of Children and Family Services, Los Angeles 
County Probation Department, California Department of 
Corrections, and a nonprofit coalition against slavery and 
trafficking, are all co-located in the same office, literally 
sitting next to each other.
    Our co-location model breaks down the previously 
established silos between agencies and brings together systems 
of discipline to address the victim's needs through a victim-
centered, trauma-informed approach. The task force employs a 
regionalized strategy that crosses jurisdictional boundaries to 
identify and rescue victims of sex trafficking while 
aggressively pursuing traffickers and buyers.
    For generations, criminal street gangs have pursued and 
have succeeded in criminal enterprises. However, the street 
gangs historically operated their enterprises within an 
established territory. Their willingness to commit crimes out 
of their geographical areas was generally limited to violence 
against rival gangs and property crimes.
    For the past several years, gangs have moved beyond their 
territorial boundaries and travel throughout the State in teams 
or as crews, as they're known, to commit residential burglaries 
and robberies.
    Los Angeles gangs began utilizing the flocking tactic. In 
flocking, criminal street gang members from a single gang or 
multiple gangs, and sometimes even rival gangs, join together, 
travel throughout the southland, and commit residential 
burglaries by forcing entry into a house in overwhelming 
numbers and in less than a minute or 2 commit the crime.
    Now criminal street gang members are proliferating in the 
illegal sex trafficking market. Gang members have realized the 
lucrative opportunity sex trafficking offers throughout Los 
Angeles County. In the majority of cases that we handle, the 
traffickers are a gang member or an affiliate of a gang.
    The crime of trafficking commercially sexually exploited 
children presents a relatively low risk of arrest for the gang 
member engaged in sex trafficking. Previous illegal 
enterprises, such as illegal narcotics, weapons, and stolen 
property place the possessor in immediate threat of arrest due 
to the mere possession of such contraband. For sex traffickers, 
being in the presence of a commercially sexually exploited 
child is not a crime.
    To add to the complexity of this issue, the commercially 
sexually exploited child victim commonly does not want to 
cooperate with law enforcement initially because of that strong 
trauma bond they have with their trafficker.
    An additional motivating factor for gangs to pursue sex 
trafficking is the fact that narcotics, weapons, and property 
can only be sold once. And as we all know, sex trafficking 
victims can be sold multiple times a day every day of the 
weeks.
    In Los Angeles County and throughout California, gang 
members operate sex trafficking victims both independently and 
for the benefit of the gang, and frequently the gang members 
will travel to any community to recruit sex trafficking 
victims. And they will also travel to any community to sell 
their trafficking victims either online, on the street, or in a 
motel, without fear of retaliation for violating another gang's 
territory.
    However, in certain geographically claimed areas of Los 
Angeles, some gangs require the sex trafficking victims to pay 
a tax in order to work in that area. The practice of taxing is 
a common means of gaining money for the benefit of a gang and 
has historically been employed against small businesses. The 
tax for sex workers has not been uniformly adopted throughout 
Los Angeles or California.
    Street gang members commonly possess unique abilities to 
identify vulnerable populations online, at schools, or in 
public places. These vulnerable people, typically young girls, 
have often suffered physical, sexual, or psychological abuse 
and/or neglect throughout their lives.
    The predatory senses of a gang member engaged in 
trafficking easily identify this population, and their gang 
membership is used to glorify the lifestyle and the acts of 
prostitution as a powerful recruitment tool. The gang member 
then expertly manipulates the vulnerable child using his 
affiliation to demonstrate his willingness and ability as a 
criminal to be capable of committing violence to protect them. 
Once recruited, the gang member exerts control over the 
trafficking victim through physical, psychological abuse and an 
atmosphere of dependency.
    I want to thank the subcommittee and its staff for 
affording me the opportunity to testify before you today.
    [The testimony of Captain Marks follows:]

                               INSERT 1-3

    Mr. Sensenbrenner. Thank you, Captain Marks.
    Dr. Slutkin.

                   TESTIMONY OF GARY SLUTKIN

    Dr. Slutkin. Chairman Sensenbrenner, Ranking Member Jackson 
Lee, distinguished members, thank you for the opportunity to 
testify.
    I'm Dr. Gary Slutkin. I'm a physician and the founder and 
executive director of Cure Violence. Cure Violence is an NGO 
rated 12th in the world among the top 500 NGOs and ranked first 
among organizations devoted to reducing violence.
    I previously worked for the World Health Organization where 
I learned the tools of working on epidemics, epidemics of TB, 
AIDS, and cholera, mostly in Africa. I returned to the U.S. in 
1995 and began working on violence in this country. We 
discovered that new research shows that violence is not exactly 
what we thought. It's an epidemic problem like other health 
epidemics, but it isn't being managed that way.
    We've also learned that there are new methods that work 
that can help that have a big impact. These methods are being 
greatly underutilized.
    The main thing about violence is to see that the persons 
and groups doing this have a contagious process which can be 
reversed. We have to shake some of our old ideas. Dozens of 
studies show that violence is predictably acquired as a 
contagious problem through brain mechanisms and pathways that 
cause copying and following what peers do. The definitive 
evidence for this is in this Institute of Medicine Report of 
2013.
    This violence spreads among individuals and groups and 
families, even suicides, and extremist recruitment also happens 
in this way. The violence in the U.S. and Latin America is 
following very basic epidemic patterns, like all epidemic 
diseases.
    We took advantage of this first in Chicago in the year 2000 
when we tried standard epidemic control health methods in a 
pilot in West Garfield Park, which was the most violent 
community in the country at that time. We hired and trained 
epidemic control workers, who we called interrupters, behavior 
change agents, outreach workers. We got a 67 percent drop in 
shootings and killings in the first year, and it was almost 
immediate.
    Funders said do it again. We had four more replications 
with 45 percent, on average, drops in shootings and killings. 
Since then, there have been several independent evaluations in 
the work, and it's spread to 25 cities in the U.S. as well as 
in Latin America.
    These results are attained by health workers similar to 
those that are used for other epidemics. Health departments or 
other government agencies supervise this work. In New York 
City, Baltimore, and Kansas City, the health department runs 
it. In Honduras, it is a local pastor. In Mexico, a public-
private partnership. In El Salvador, a partnership with Save 
the Children.
    The results are usually 25 to 50 percent drops in shootings 
and killings, but 70 to 100 percent are seen when there are 
enough workers. Approximately 40 to 70 percent has been seen in 
Chicago alcoholic; 30 to 50 percent drops in Baltimore; 50 
percent in Juarez, Mexico; and 88 percent in San Pedro Sula, 
Honduras.
    It also can be fast, with results shown within the first 
month multiple times. Several communities have also gone to 
zero for a year to 2 years. Some of these communities include 
Cherry Hill in Baltimore and Yonkers in New York. This is what 
you aim for in epidemic control.
    When I was working on a cholera epidemic in Somalia, we 
were not aiming for 40 to 70 percent drops. We were aiming to 
get rid of it, like for Ebola. There are many accomplishments 
in public health with these measures in which many diseases and 
problems are no longer with us.
    A few last things. Chicago has gone up and down in relation 
to the public health work. There is a 20-page report on this on 
our website. The ups and downs in Chicago have mostly been 
related to the ups and downs in the State of Illinois budget, 
which, as you know, was without a budget for the last 2 years.
    When Cure Violence lost 13 or 14 sites in March of 2015, it 
was exactly the turning point in Chicago when the violence 
began to go up. This one site that remained has continued to go 
down.
    Last, the stream of unoccupied children and others from 
Latin America are fleeing violence. We are getting big 
reductions in Latin America with this method and can help a lot 
there as well as in our cities. This solution, public health 
methods, is an entirely nonpolitical and free of prior 
controversy solution which has been underutilized by prior 
administrations. I suggest we change this.
    Understanding violence as a contagious epidemic and 
reversible health problem solves a lot of our problems and 
could save tens of billions of dollars. Law enforcement now is 
being asked to do way too much. It is also being blamed too 
much. And we can help.
    Thank you.
    [The testimony of Dr. Slutkin follows:]

                               INSERT 1-4

    Mr. Sensenbrenner. Thank you very much, Dr. Slutkin.
    The chair will revert to what he did during his previous 
chairmanship, and that is recognize members under the 5-minute 
rule in the order in which they appeared alternately between 
the majority and the minority parties. I would ask members to 
keep their questioning to 5 minutes. And in case the bell rings 
early, I will withhold my questions to see if we have time 
after all the other members ask questions.
    So the gentleman from Texas, Mr. Poe, is recognized for 5 
minutes.
    Mr. Poe. I thank the chairman.
    Thank all you all for being here.
    In my other life, I was a prosecutor and a criminal court 
judge for 22 years, so I want to address my questions to 
specifically the scourge of human trafficking that, Captain 
Marks, you mentioned, and, Mr. Vanek, you mentioned as well.
    The average age, I understand, for a trafficking victim is 
13. It's a female. Is that correct, Captain Marks?
    Captain Marks. That's published in many articles and 
studies. However, what we see at the Los Angeles task force, 
generally the age that we encounter them is 15, 16, and 17.
    Mr. Poe. Okay. And as you said, trafficking, sex human 
trafficking and sex victims, is lucrative because the victims, 
unfortunately, are abused and used multiple times a day, some 
cases 20, 25 times a day, the risk of apprehension is less and, 
until recently, the punishment has been less for capturing the 
traffickers.
    The new legislation that Congress has passed now not only 
goes after the trafficker, but goes after the buyer, who ought 
to be in jail, the consumer, and helps rescue victims of crime 
and restores them back to some dignity.
    Explain to me so that it's very clear, anyone, but start 
with Captain Marks, how prevalent is human sex trafficking in 
the gang culture?
    Captain Marks. Well, in preparation for today's testimony, 
yesterday I asked one of my crime analysts to scour through 
different social media sites and pull up recent ads that I 
could use as talking points. One of the ads she pulled up was a 
gang member as a pimp who is looking for girls to recruit.
    Within an hour of conversation with an undercover deputy 
sheriff, we had made an arrangement, posing as an underage 
girl, to meet him and to go to work for him, and we had 
arrested him a couple hours after meeting with him.
    So it's frighteningly prevalent. Literally, the more we 
look, the more we find. Every time we go online and advertise 
either as an underage girl, we get all kinds of reactions and 
interactions from people wanting to be sex traffickers for 
those girls.
    Mr. Poe. Mr. Vanek, do you want to comment on that?
    Mr. Vanek. I couldn't agree more. With the use of social 
media and the internet, it's become increasingly easier for 
these gang members to reach out and connect with anyone, any 
female that could be from the suburbs or even in their own 
neighborhood. It's just as simple as going on your cell phone, 
which everybody has now, and placing an ad.
    Mr. Poe. To your knowledge, have you seen ads placed on 
Backpage that had been used to further the criminal conduct of 
human sex trafficking?
    Mr. Vanek. Yes. Backpage, Facebook, Craigslist, all of 
those are utilized.
    Mr. Poe. And my question really is, help me understand how 
prevalent this problem is. I've heard anecdotally, it's easy to 
recruit and get these girls into sex slavery. But how prevalent 
is it?
    Mr. Vanek. It's basically an everyday occurrence. You'll 
have a younger female that has no means, no ways about 
providing for themselves. It's an everyday occurrence in these 
high-crime gang areas. And they look for options. And a lot of 
times, the option is getting into the sex trafficking and their 
connection to the gang member.
    Mr. Poe. Foreign gangs, in my opinion, operate in the 
United States. MS-13 is a perfect example. In the immigrant 
community, how prevalent is this sex trafficking of immigrants 
that have come into the United States?
    Captain Marks.
    Captain Marks. Yes, sir.
    So the commercial sexual exploitation of children is 
basically a domestic problem for us with the gang members. The 
girls that they're recruiting, that they're putting to work as 
commercial sex workers are homegrown. They're American 
citizens. Where we see foreign victims is generally when we get 
into illicit massage businesses.
    But to answer your question, it's a homegrown problem, and 
we have a huge vulnerable population. The road that these 
victims take once they become a commercially sexually exploited 
victim is usually a lifetime of abuse. So they're a very 
vulnerable population.
    Mr. Poe. Thank you.
    I yield back.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentlewoman from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Let me thank Mr. Conyers and Mr. Goodlatte 
for their commitment to this work that I have generated over 
the past period that I've had the privilege of serving as the 
ranking member of this committee. Let me thank Mr. 
Sensenbrenner for his years of commitment and dedication to 
these issues and look forward to driving solutions.
    My level of frustration is high because it is long overdue 
for holistic criminal justice reform, Captain, in helping you 
and all of the witnesses here. And let me thank all the 
witnesses.
    Mr. Blanco, very quickly, we are seeking to reauthorize the 
juvenile block grant, which, as you well know, is a tool that 
the DOJ has working with juveniles, which we are trying to 
emphasize best practices. Would that be helpful to you, 
reauthorization, new ideas, best practices, and using that 
block grant reauthorization?
    Mr. Blanco. Madam Congressperson, unfortunately, I'm not 
familiar exactly with that block grant. But I can tell you that 
I know that the Attorney General is interested in using all 
kinds of ideas in order to better the community and save our 
streets and protect our citizens and our victims. But I can't 
specifically answer that.
    Ms. Jackson Lee. No problem. We'll take that as a yes. 
Thank you very much.
    Let me ask the good doctor. Thank you so very much. And for 
the other witnesses, I'm going to allow my colleagues to 
pointedly ask you question, but I'm going to thank you.
    Doctor, I'm frustrated. You have given me an opportunity to 
focus in on several questions.
    First, I'd like to lay the groundwork. Mr. Blanco said that 
juveniles are used, are being used as pawns to carry out the 
bad deeds of gang leaders. There is the crux. I think in your 
statement you indicated violence goes from brain to brain, from 
12-year-old brain to 13-year-old brain, 13-year-old brain back 
to 14, and on.
    Focus on the reality of us using your program and the 
potential of it having major impact. My first point is, have 
you ever been embraced by the Department of Justice as a tool 
that could be used across the country?
    Dr. Slutkin. Yes.
    Ms. Jackson Lee. Is your mike on?
    Dr. Slutkin. Yes, we have been funded by the Department of 
Justice. We have been regularly highlighted by the Department 
of Justice.
    Ms. Jackson Lee. Are you now funded?
    Dr. Slutkin. Yes, through a partnership for and the Victims 
of Crime Act.
    Ms. Jackson Lee. And where are you using that funding?
    Dr. Slutkin. Multiple cities. I think it's about 20 cities. 
And we have also just been asked to present at their next 
forum.
    Ms. Jackson Lee. So would you be kind enough to provide 
us--I'm not sure if it's in your testimony--the list of cities 
and results of those cities?
    Dr. Slutkin. Yes. Samples of it are in the written 
testimony, and more can be provided.
    Ms. Jackson Lee. And if we were to expand your 
opportunities through funding, you could expand to other cities 
and you could present results?
    Dr. Slutkin. Yeah. Absolutely. And we would be reporting to 
the committee as well as whatever funders there would be.
    I just want to add that this is additive to law 
enforcement. There is nothing except synergy here. And this is 
why we've been able to get this good result.
    Ms. Jackson Lee. Let's give me an example. Why don't you 
articulate, even though it's in your statement, what you did in 
Chicago. Because Chicago's image is there is nothing good 
happening in Chicago. Help me with Cure Violence and how it 
cures and how it helps. Give me the A, B, C.
    Dr. Slutkin. Well, I mean, the way that it works is 
primarily by hiring interrupters and outreach workers. These 
are new categories of workers. These are people who have 
credibility and access and trust with the population. The 
population that is about to do a shooting tonight or today, we 
have access to them and can cool them down. These workers are 
very highly selected and supertrained, hundreds of hours of 
training. They know how to cool someone down, buy some time, 
and then shift their thinking, so they feel socially okay to 
not do a shooting.
    Ms. Jackson Lee. Give me an example of a worker. Don't give 
their name, but age, race.
    Dr. Slutkin. Yeah. The workers are a little bit older than 
those who are doing the shooting, as it turns out. And 
frequently they come from the same lifestyle and the same 
background, so that's why they have the credibility and trust.
    And this is the way we work in public health. We use sex 
workers to reach--former sex workers to reach sex workers and 
moms to reach moms, et cetera. So they're people who have this 
kind of access and trust and, therefore, they're not at risk 
themselves.
    Ms. Jackson Lee. Now, are they African American? Are they 
Hispanic?
    Dr. Slutkin. If they're in an African American community, 
they're African American.
    Ms. Jackson Lee. So you use the indigenous, if I might use 
the terminology, people.
    Mr. Slutkin. One hundred percent. All epidemics are managed 
from the inside out, not from the outside in.
    Ms. Jackson Lee. And you've seen the results of statistics 
of crime going down?
    Dr. Slutkin. Yes.
    Ms. Jackson Lee. Violence.
    Mr. Slutkin. Yes. Absolutely.
    Ms. Jackson Lee. Thank you very much.
    Mr. Sensenbrenner. The time of the gentlewoman has expired.
    The gentleman from Florida, Mr. Rutherford.
    Mr. Rutherford. Thank you, Mr. Chairman.
    And thank you, panel, for being here this morning to 
discuss issues that are certainly affecting every major city in 
the United States.
    And, Mr. Blanco, I'd like to start with you and Mr. Vanek. 
I want to kind of shift to prosecution. Can you discuss a 
little bit the challenges that we're facing in the typical gang 
prosecution under RICO.
    Mr. Blanco. Certainly, sir. As you know, that's one of our 
most important tools on the Federal level to attack these 
gangs, both international and domestic.
    Some of the challenges are the challenges that were just 
mentioned earlier, and that is the safety of these victims and 
the safety of witnesses and putting those individuals in places 
where we can utilize them and that they feel safe.
    That's probably the majority of what our challenges are, I 
think that using the RICO statute as well as the VICAR and 
other statutes. And let's not forget our narcotic statutes as 
well. As was mentioned earlier, in many situations, if we don't 
have a witness or a victim that can come forward, we'll use 
other crimes for which we know that we can prosecute them and 
get them for those crimes.
    So those really, at least as far as I can see, and maybe my 
law enforcement colleagues can say differently, are really our 
challenges. But it is a very effective tool on the Federal 
level to attack these gangs.
    Mr. Rutherford. Thank you.
    Captain Marks--or Mr. Vanek, first, if you would--I'm 
particularly interested in the difficulties that may be created 
by, you know, now the gangs have moved into this music nexus. 
Does that impact on proving the criminal enterprise?
    Mr. Vanek. It certainly helps. It is not the nail in the 
coffin, per se, but it definitely helps with listening to their 
lyrics, how they're talking. There are usually lots of tips and 
clues that are involved in those songs. And then those 
basically we kind of expand out from that and investigate those 
types of crimes and see if we can connect them to what would be 
a RICO statute.
    Mr. Rutherford. Captain Marks, anything you'd like to add 
on RICO prosecutions?
    Captain Marks. Yes. So one of our partners on our grants is 
the U.S. Attorney's Office. And we have a very good 
relationship. The U.S. Attorney sits on our task force.
    The challenge that we have with sex trafficking, RICO 
statutes are phenomenal tools against gangs, but a lot of times 
those are long, drawn-out investigations.
    Generally, sex trafficking investigations start out very 
small--one victim, one pimp--and then only after time it turns 
into 11, 13 victims. And we can't allow that conduct to 
continue, we're compelled to make an arrest right away to get 
that dangerous criminal off the street, which really prohibits 
us from pursuing a RICO Act where we need that investigation to 
grow over a longer period of time.
    Mr. Rutherford. Okay.
    And, Mr. Vanek, the challenge that we have with flipping, 
can you talk a little more about that and how that may be 
impacting RICO prosecutions as well?
    Mr. Vanek. Sure. Thank you.
    When you are trying to get someone to cooperate in a murder 
investigation or a RICO investigation where they're going to be 
putting themselves, basically, out there for you, it is 
difficult to put your--you have to put yourselves in their 
shoes. They're still living in that area. They still have 
friends. Their whole world will be eventually turned upside 
down.
    To provide them with the safety and understanding and the 
guarantee that we will take care of them throughout the 
process, because RICO statutes, RICO investigations, they take 
a long time, that with protecting them and their families will 
give them a sense of ease and will eventually make more people 
want to come forward.
    Mr. Rutherford. But are these flipping cases not more where 
individuals--I understand the safety piece that Mr. Blanco 
mentioned earlier. That's a huge issue that has to be 
addressed. But there are those who are flipping--they're being 
bought off, basically, by rival gangs, or whoever they may be 
testifying against. What about that issue?
    Mr. Vanek. That happens a lot.
    Mr. Rutherford. Can we prosecute for that? Do we need 
additional legislation to help fight that somehow or identify 
that?
    Mr. Vanek. I would say yes, any additional legislation on 
that to help that cause would be greatly appreciated. Those are 
investigated. But at times, again, you need witnesses, you 
would need some sort of probably audio-video evidence of actual 
threats being assailed where that person is actually--it's 
usually a one-on-one type of thing. But now more and more with 
social media those, they're being documented.
    Mr. Rutherford. Thank you very much. My time has run out.
    Mr. Chairman, I yield back.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    The gentlewoman from California, Ms. Bass.
    Ms. Bass. Thank you very much Mr. Chair and the Ranking 
Member for holding this hearing today.
    I was very excited to hear about this hearing because to me 
it signaled what I hope is an indication that we actually will 
look back at history over the last couple of decades and 
consider doing something differently. Because what we have done 
over the last 30 years is we have come up with so many laws, 
gang enhancements, to incarcerate a lot of people, and I don't 
think that we've necessarily spent much time looking at the 
root causes as to why people get involved in gangs. And maybe 
that's a hearing that we could do in the future.
    I come from Los Angeles. I'm very proud of our city and our 
county. I'm very glad that Captain Marks is here today. I think 
that there were--I'm going to ask you a couple of questions, 
because I want you to highlight the involvement that the 
sheriff's department has with the communities.
    And each of you mentioned that it can't be solved alone by 
law enforcement, and we've relied too much on law enforcement. 
We lock people up. They come home. And what we don't realize is 
that then we have communities that have an overconcentration of 
people who go in and out of prison, which actually kind 
continues the cycle of violence.
    And also, if we want to save money, that's not exactly the 
way to do it.
    And so I am hoping that this is an indication that we will 
actually look back at the last 20 or 30 years, see what we've 
learned, and try to do something different.
    I also want to put you on notice, Captain Marks, and you 
can tell the sheriff this, that I have invited my colleague 
over there on the other side of the aisle, Steve Chabot, I've 
invited him to Los Angeles because I want him to see how we 
have gone about the work in L.A. differently.
    Now, someone mentioned gang intervention workers. I think 
you mentioned that, Mr. Slutkin. And that's something that we 
have used in Los Angeles. And I know the captain knows that can 
play both ways. I mean, we know that there's great examples of 
that, but it's not a panacea, because sometimes the folks are 
still involved in the life. But we've definitely been able to 
make a difference.
    So I spent 14 years working in the middle of South Central 
at the height of the crack cocaine Crip and Blood crisis, and 
we were able to make a difference there. The situation has 
improved. We still have our problems. It's morphed now into sex 
trafficking. It wasn't something we were dealing with 25 or 26 
years ago.
    But, Captain Marks, I do want you to mention the whole 
campaign that was done in Los Angeles at the county, that no 
child is considered a prostitute, that you guys are not 
arresting, you guys are detaining and referring to services in 
terms, you know, of the victim. So I wanted you to speak a bit 
about that. And then I want to talk to Dr. Slutkin.
    Captain Marks. Thank you, ma'am.
    Yes, that is correct. Sheriff Jim McDonnell and the County 
Board of Supervisors adopted a No Such Thing as a Child 
Prostitute campaign where we don't refer to them or arrest them 
as suspects. We treat them as the victims that they are.
    Furthermore, that the county, the Board of Supervisors has 
been very supportive. We've developed a countywide first 
responder protocol which provides direction for law enforcement 
when they identify sexually exploited children, that all county 
departments come together and provide essential services for 
those crucial first 72 hours to try to break that bond with the 
sex trafficker and get them the help they need and back on the 
right track.
    Ms. Bass. Thank you very much.
    You know, the program that I mentioned that I started in 
South Central at the height of the crisis was actually funded 
by the Federal Government. The government gave us a 5-year 
grant. Now, the organization is now 26 years old, because we 
developed other resources and moved on. But it was completely 
based on the model, Dr. Slutkin, that you mentioned.
    Sometimes we think that these communities are hopeless, and 
we kind of throw in the towel, and then we just arrest 
everybody. And then we let them out and the cycle continues.
    So you were talking about Chicago. And Chicago is one of 
those areas that I think we've checked the box as being 
hopeless. And I wanted to know if you could talk just a little 
bit more about what you think we can do in Congress to expand 
the model you're talking about and make improvements.
    We had a thousand homicides in L.A. at the height of the 
crisis, and we are nowhere near that now.
    Dr. Slutkin. Thank you, Congresswoman.
    First, I think the number one thing to do is to add to 
whatever it is that you're doing funds for intervention. It can 
be into the Justice budget. They've been able to work with us 
and our partners. And it's also in health budgets. And a very 
small amount would multiply itself many, many times in terms of 
lives saved.
    I want to add that the chief of L.A. co-presented with me 
at the Major Chiefs meeting and said that this was the thing 
that caused the reduction, despite many other law enforcement 
interventions not making a change over multiple years in L.A.
    And I want to add that I understand this need, this desire 
for the prosecutions and the punishment. It is not actually 
affecting the people who are doing it. The people who are doing 
it do not think that they're going to be prosecuted. They do 
not think they're going to get caught. They need to be talked 
to by intervention workers who will then help them shift their 
thinking. They're being led by their peers, and we could put 
peers in there in order to reduce the problem itself.
    Mr. Sensenbrenner. The time of the gentlewoman has expired.
    The gentleman from Ohio, Mr. Chabot.
    Mr. Chabot. Thank you very much, Mr. Chairman.
    And first I wanted to apologize for not being here earlier 
in the hearing. I'm chairman of the House Small Business 
Committee, and one of my subcommittees had a hearing going on. 
And it's tough to be in two places at once, although we all 
struggle with that on a routine basis around here.
    And I want to thank Ms. Bass for that invitation to visit 
her district. And we have discussed this. And I absolutely 
intend to do that. And perhaps back in my district, I represent 
most of the city of Cincinnati, and we have our issues there as 
well, and we'd like to learn from some of the successes that 
you've had. And perhaps we can take those back to my district. 
So I'm looking forward to that. It's just a matter of 
coordinating the time.
    Ms. Bass. Exactly.
    Mr. Chabot. And we have traveled to Iraq together before. 
And so, Ms. Bass, I consider her a good friend as well as a 
colleague on this committee.
    Just a couple quick questions. First of all, it's my 
understanding that incarcerated gang members are using 
contraband cell phones in prisons, various prisons, to conduct 
all sorts of illicit gang activities outside the prison walls--
and it's not just gang members, I mean, adult criminals are 
doing this as well--including drug trafficking, murder, witness 
intimidation, and on and on.
    And there have been some cutting-edge technological 
improvements that we have now. Continuous wave beacon 
technology is my understanding of one of those technologies.
    And I would just--I'm not sure--I'll just open up, whoever 
would like to take that. Could you discuss that? And if 
somebody else has already asked this question, I apologize. But 
anybody want to take that on?
    Mr. Blanco. Happy to, Congressman.
    Yes. Contraband cell phones, all kinds of items being 
smuggled into prisons and to jails enables and emboldens these 
not only in-jail gangs, but also the gangs that they deal with 
outside of the jail. It's not only dangerous to the people on 
the street, but it's also dangerous to the guards that are 
inside the prisons as well.
    It is a problem that we are working with. We're working 
with our State and local partners to make sure that we have the 
ability to reduce that. On many of the wiretaps that I read, at 
least federally, when we see that there is a cell phone that's 
being used in a prison or in an area where there are inmates, 
we make sure that we notify our State and local authorities, 
and we work with it that way.
    But it is a significant problem that we're working on.
    Mr. Chabot. Thank you.
    I was involved and actually introduced a bill called the 
Girls Count Act. Marco Rubio introduced it over in the Senate. 
It became law. What this did is on a worldwide basis there were 
50 or so million, especially young girls, that never got birth 
certificates. And so they couldn't get government papers, and 
they were targeted because they really couldn't identify who 
these girls were. They were sold off by families. A whole range 
of pretty horrific stuff. And I know that the gangs here in the 
United States have been involved in sex trafficking, and 
especially young girls.
    Do you know if gangs are--are they targeting any--is this 
occurring where women are brought into the country, targeted, 
because of their lack of birth certificates or government 
documentation? Does anybody know if that--is that something 
that's occurring?
    Captain Marks.
    Captain Marks. Yes, sir. So the criminal street gangs in 
the United States are targeting homegrown girls. So we have a 
huge vulnerable population out there that have been victims of 
abuse or neglect their entire lives. They're experts at 
smelling out and finding those girls and targeting those girls. 
So all of the victims that they are exploiting are domestic 
females.
    Mr. Chabot. Okay. Thank you.
    My final question. I have like 1 minute here.
    I was in Guatemala and Honduras last year. And we had a 
real problem on our southern border where unaccompanied young 
people were coming and flowing over our borders. And what I was 
told down there is one of the principal problems are these 
young people were fleeing the gangs back in their communities, 
and the parents were sending them to try to get them away from 
this.
    And I've heard, you know, a number of news articles where 
there are certain cities where we have seen gangs targeting 
kids very aggressively to try to bring them in and intimidating 
them if they don't get into the gangs. Would somebody like to 
comment on that?
    I see Mr. Blanco, you nodding, so----
    Mr. Blanco. That, as you've mentioned, Congressman, that 
nails it on the head. You'll see many of these international 
gangs, for example, MS-13, targeting their very own people 
because they're vulnerable. Not only are they vulnerable in 
their countries like El Salvador, Guatemala, and Honduras, but 
when they are here they are vulnerable because they have family 
members back in those countries. So they not only intimidate 
the young women here, but they intimidate the family members 
back there.
    It is a vicious cycle. We are working very hard with our 
foreign counterparts and our local and domestic law enforcement 
to see what kind of measures we can take to help them.
    Mr. Chabot. Thank you, Mr. Chairman.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from--well, Mr. Lieu is not here.
    The chair yields himself 5 minutes.
    Mr. Blanco, as you may know, I'm the principal House author 
of the CARA Act, which was designed to have a comprehensive 
response to opioids, which passed last year and was signed by 
President Obama. Fentanyl has been a mushrooming problem, and 
it's deadly.
    Are you seeing street gangs distributing fentanyl? And 
where are they getting it from?
    Mr. Blanco. Mr. Chairman, yes. And they're getting it from 
many different sources. Sometimes these gang members are 
getting it from rival gangs, because it is about making money. 
Sometimes they are associated with the gang members overseas, 
so they have a distribution network that they receive those--
the fentanyl from, too.
    But they also, Chairman, I think you'll notice this, the 
other day, too, we did a healthcare takedown where we went 
after healthcare professionals and pill clinics. They get them 
from there, too.
    So it's across the board. It is a moneymaker. And as you 
mentioned earlier, it's deadly. And it's killing so many of our 
young people. And not only young people, parents. It's across 
the board.
    Mr. Sensenbrenner. Mr. Vanek, you have mentioned the 
practice of flipping, which is extortion pure and simple, where 
it is very difficult to get people to testify for the--I was 
going to say prostitution, but I will say prosecution.
    Now, is there a way to lock in their testimony through a 
grand jury, which makes it less likely to be flipped? And have 
prosecutors been able to prove that flipping has occurred, 
which a form of obstruction of justice?
    Mr. Vanek. On the Federal level I would say that it's a lot 
easier and they take their grand jury very seriously. On the 
State level, I can assure that even with locking them into a 
grand jury statement, even locking them into a video statement, 
when it comes to trial and they get on the stand, they flip. 
And they then do not benefit, either the prosecution side, but 
there's other ulterior motives, like I have stated before.
    Why? Perjury charges on the State level are few and far 
between for that. I know as investigators we would love to see 
that happen. It's something that happens routinely on the State 
level.
    Mr. Sensenbrenner. Okay. I have a number of questions for 
Dr. Slutkin.
    You give a very interesting scenario and very comforting 
success ratios for what you have been doing. I guess the 
problem that we have is, is that there's been an erosion of 
personal responsibility in our society. And if you treat gang 
violence as a public health problem--now, murdering someone to 
me seems a lot different than vomiting uncontrollably when you 
have the flu.
    So stopping the murders has got to require, you know, 
increased realization of personal responsibility and what a 
murder actually consists of, and that's ending a human life and 
having untold grief with loved ones and family members.
    Does your program, you know, emphasize personal 
responsibility as well as all of the other things you have 
testified to?
    Dr. Slutkin. Yes, Mr. Chairman. And this is part of the 
conversation with the individuals that intervention workers 
have. And there is no objection to what is required if a 
violent act has occurred, what law enforcement needs to do.
    What we're saying is that these workers can talk to someone 
when they're thinking about possibly doing something. And that 
talking to them then allows them the time to cool down, to feel 
validated, whatever they need to just cool down. Because 
they're usually upset actually not about some of the things 
that are being discussed here. They're really being--they're 
really doing murders about a girlfriend or about money owed to 
them or about disrespect or something like that.
    We are able to cool them down and say, ``Listen, this 
doesn't make sense,'' and the event doesn't happen. And 
retaliations don't happen. And the communities get safer.
    Mr. Sensenbrenner. Okay. In the time I have left I have 
two, you know, quick questions.
    Do you have public-private partnerships or do you rely 
exclusively on money you get from the Justice Department?
    Dr. Slutkin. Oh, no. The funds per city or per country are 
variable. I mean, in New York City the funds are supplied by 
the city and the State. Baltimore, it's Federal Government and 
also foundations. Chicago, it's been the State. And the Inter-
American Development Bank, USAID, the World Bank, others, have 
funded the international work. So it's been foundations and--
the Robert Wood Johnson Foundation has funded this. Justice 
Department. I should say also the Justice Department funded the 
independent evaluation of Chicago's work.
    Mr. Sensenbrenner. Okay. One last question. Is your program 
in Milwaukee? Because we got a big crime problem there.
    Dr. Slutkin. We're not working in Milwaukee at this moment 
as far as I know, but we're in discussions with them. We have 
been asked to work with them.
    Mr. Sensenbrenner. Who in Milwaukee are you talking to?
    Dr. Slutkin. My staff know better. I believe it's the 
health department and also the trauma hospital centers.
    Mr. Sensenbrenner. Okay. Let me know about that.
    Dr. Slutkin. I certainly will, sir.
    Mr. Sensenbrenner. I will, you know, ask the gentlewoman 
from Texas if she wishes a second round. If so, she's 
recognized for 5 minutes.
    Ms. Jackson Lee. Mr. Chairman, I would be delighted. Thank 
you for your courtesies.
    Let me follow the chairman's line of questioning and ask 
specifically about Houston. Are you in Houston?
    Dr. Slutkin. No.
    Ms. Jackson Lee. So let me publicly extend an invitation 
for Cure Violence to visit and to have us pursue the 
opportunity.
    Dr. Slutkin. I'd be happy to.
    Ms. Jackson Lee. I thank you very much.
    Let me first of all thank our colleagues that were here, 
the chairman and Ms. Bass. We thank Mr. Lieu, who had to step 
out for another hearing, for his presence here.
    I want to pursue the line of questioning, and if I might 
make a comment.
    Mr. Blanco, I thank you for your commitment to the Juvenile 
Block Grant Accountability Act. This goes through a series of 
dollars that law enforcement can use in their work, and it's 
been very effective. So I'm not sure your area familiar, but 
make yourself familiar with it, because we have modified it, 
Captain, to include cyberbullying, intervention, and issues 
dealing with best practices.
    So, Captain, let me ask you, Juvenile Block Grant, any 
resources to help you in your work with juveniles, would that 
be helpful to you from the Federal Government?
    Captain Marks. It absolutely would. We're in desperate need 
to reach out to that population, the young kids, and get on 
social media with messaging about the dangers that operate on 
the internet and how kids are being exploited.
    Ms. Jackson Lee. Well, I want to work very hard to get 
those resources with your Member, because I believe your work 
should be both promoted and celebrated.
    Dr. Slutkin, let me ask you a technical question. Please 
explain the contagion effect as it pertains to behavioral 
transfer from brain to brain. And how do we reverse the adverse 
impact, i.e., trauma, anxiety, PTSD, and depression, that has 
already occurred in those subjected to rigorous violence?
    And then, if I can add, as you intervene and you stop the 
dear brother mostly from going after X, Y, Z, does that dear 
brother cool off in front of you, circle around, and catch X, 
Y, Z the next day?
    Dr. Slutkin. Yes, thank you. So the first part of this is 
how the contagion occurs. There are cortical neurons in our 
brain that pick up what we see other people do. This is true 
for all of us. And violence is especially picked up because 
it's so salient.
    Secondly, dopamine pathways and pain pathways allow us to 
unconsciously copy and want to do what others are doing. Moms 
do what other moms are doing. No one in this room is smoking, 
whereas we used to smoke. A third of us were smoking when I was 
in medical school watching angiograms.
    But the norms get changed. The norms have changed. And now 
we can get to a person who is about to do--use a gun and say, 
``Wait a second, what are you thinking?'' and give him a 
different expectation.
    So added onto these processes, which are described in this 
book, are the effects of trauma that you have mentioned. The 
trauma causes people to be hyper-reactive and thinking 
everything is against them.
    All of these things are reversible. In the short term we 
cool someone down. They're on hot. Their amygdala is hot. We 
cool them down. We let them go down to where they can listen to 
someone. We validate their concerns. And then we reframe this 
so that they feel that they're still positive to be able to do 
this.
    And your last question, we now then will stay with that 
person for 6 months to 2 years, so he will not circle back. Our 
staff called this ``babysitting'' or ``shadowing.'' So that the 
long-term effect on that person is a stick, so that he does not 
relapse. He and his friends are managed so that they will no 
longer do this.
    Ms. Jackson Lee. You made a very important point earlier in 
your testimony saying people don't think about I'm going to 
court, I'm going to trial, I'm going to be incarcerated.
    Dr. Slutkin. Furthest thing from their minds.
    Ms. Jackson Lee. So do you think the leadership that we now 
have at the Justice Department--let me just be generic. 
Leadership that would want to emphasize mandatory minimums, 
taking away prosecutorial discretion so that a judge, a 
prosecutor may say this is juvenile, it may be obviously a very 
unfortunate crime, but the prosecutor may see another option.
    Do you think that kind of intervention is important? 
Because then you have the opportunity to deal with some of 
these healing factors that you're talking about. And a lot of 
it is brain to brain or emulating something else. Do you think 
that discretion is important? And do you think there's any 
value in mandatory minimums?
    Dr. Slutkin. So just to reemphasize, we are completely 
apolitical, we are health people. I think that the punishment 
has really been overemphasized and it scientifically is not 
really what is driving the causing of behavior or the changing 
of behavior.
    So we have to really reeducate ourselves as to how 
behaviors are actually formed and how they are actually 
changed. So any discretion that allows alternatives where 
people who know how to do behavior change and that can help 
that person not do it.
    We see a rap sheet actually as a set of untreated moments 
that should have been managed in a different way to prevent 
these additional courses. And there is plenty of data now that 
shows that people--even the highest risk people--can be 
changed.
    Ms. Jackson Lee. I thank the chairman for his indulgence, 
and I thank the witness for his testimony.
    Mr. Sensenbrenner. The gentlewoman's time has expired.
    This concludes today's hearing, and we are about ready to 
vote. Without objection, all members will have 5 legislative 
days to submit additional written questions for the witnesses 
and additional materials for the record.
    And without objection, the hearing is adjourned.
    [Whereupon, at 11:01 a.m., the subcommittee was adjourned.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
